No. _____________
IN THE
SUPREME COURT OF THE UNITED STATES

FIDEL ALAIN MARTIN–SOSA
Petitioner,
v.
UNITED STATES OF AMERICA
Respondent.

PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FIFTH CIRCUIT
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Fidel Alain Martin–Sosa, pursuant to Rule 39 and 18 U.S.C. §
3006A(d)(6), asks leave to file the accompanying Petition for Writ of Certiorari
to the United States Court of Appeals for the Fifth Circuit without prepayment
of costs and to proceed in forma pauperis. Petitioner was represented by counsel
appointed under the Criminal Justice Act, 18 U.S.C. § 3006A(b) and (c), in the
United States District Court for the Northern District of Texas and on appeal to
the United States Court of Appeals for the Fifth Circuit.
Respectfully submitted this the 24th day of August, 2020.
Pia Rebecca Lederman
Counsel of Record
LEDERMAN LAW FIRM
1117 W. Randol Mill Rd., Ste. B
Arlington, Texas 76012
(817) 860-8888
pia@ledermanlawfirm.com
Attorney for Applicant

